                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: Al0060041                                                                     Page 1 of 1



                OIG conducted an inquiry into an allegation that the Subject1 submitted NSF proposals
        containing copied material. We reviewed 18 proposals and four final project reports the Subject
        submitted to NSF and identified copied material. The Subject's response to our inquiry did not
        dispel the allegation.

                 Because the submitting organizations were small business, we conducted our own
         investigation, which focused on three awarded proposals2 and on one declined proposal. 3 We
         concluded, based on a preponderance of the evidence, that the Subject knowingly committed
         plagiarism in four NSF proposals, deemed a significant departure from accepted practices, and
         recommended actions to be taken to protect the federal interest. The Deputy Director concurred ·
         with our recommendations.

                 This memo, the attached Report of Investigation, and the Deputy Director's letter
         constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGII:'JIA 22230




                                          JAN 2 Z 2013

    OFFICE OF THE
   DEPUTY DIRECTOR




VIA CERTIFIED MAIL/RETURN RECEIPT REQUESTED




       Re:     Notice of Research Misconduct Determination


Dear D r . -
        From- through- you served as a Principal Investigator ("PI") on four SBIR.
Phase I     submitted for · to the National Science Foundation             entitled,



documented in the attached Investigative Report prepared by NSF's Office oflnspector General
("OIG"), these proposals contained plagiarized material.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ... "45 CFR § 689.l(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.1(a)(3). A finding of research miscondl!ct
requires that:
                                                                                                    i·
       (1) There be a significant departure from accepted practices of the relevant research
             community; and                                                                         I
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

        Your proposals contained 294 unique lines of text, two figures, and 59 embedded
references copied from 23 source documents. By submitting proposals to NSF that copied the
ideas or words of another without adequate attribution, as described in the OIG Investigative
Report, you misrepresented someone else's work as your own. Your conduct unquestionably
                                                                                             Page2
constitutes plagiarism. I therefore conclude that your actions meet the definition of "research
misconduct" set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689 .2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was committed knowingly and constituted a significant departure from
accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

        NSF's regulations establish three categories of actions (Group I, II, and Ill) that can be
taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that c;m. institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CPR§ 689.3(a)(1).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
awards; prohi~itions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CPR§ 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination that it was committed
knowingly. I have also considered the fact that your misconduct was part of a pattern of
plagiarism. In addition, I have considered other relevant circumstances. 45 CPR§ 689.3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

        (1) Until January 15, 2015, you must provide certifications to the OIG that any proposal
            or report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
            fabricated material; and

        (2) By January 15, 2014, you must complete an ethics course, which includes discussion
            on citation practices, within one year and provide proof of its completion to the OIG.

       The certifications and written proof of training should be submitted in writing to NSF's
OIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia
22230.
                                                                                           Page 3
Procedures Governing Appeals
       Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
ofthis decision, in writing, to the Director ofthe Foundation. 45 CFR § 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final.

       For your information, we are attaching a       of the applicable regulations. If you have
any questions about the foregoing, please                   Assistant General Counsel, at (703)
292-8060.



                                                    Sincerely,




                                                     Cora B. Marrett
                                                     Deputy Director




Enclosures
- Investigative Report
- 45 C.F .R. Part 689
CONFIDENTIAL                                                                             CONFIDENTIAL




        National Science Foundation
         Office of Inspector General




                        Confidential
                   Report of Investigation
                  Case Number A10060041
                           11 September 2012
                     Tliis ·Colifid(mti~l Re:p~rt ~f Investigatiort is provided to you.
                             .    .    FOR OFFICIAL USE ofvit. . .               .
·. Itco1ltafus prbtected personal information, tlie .ooauthorized clisdosme of ~hich may result in··
·..·p~rsotial·crinlinaJ. liabilityunde~ the PrivacyAct; .5 U,S.C. § ?52a. Thi~ report maybe further.
 · disclo~ed within NSF only to individuals \Vho must have knowledge .of .its . contents to
  ,facilitate .NSF's . assessment and n!solutimi ofthis matter.. This report mai be disclosed··
    outside NSF only ooder the Freedom oflnfotmation and Privacy Acts, 5 U.S.C §§ 552 &
    552a. Please take appropriate'precautioJ:lS handling tfti~ confideiitial~eporl of investigation. · . ·

                                                                                    NSF OIG Form 22b (12j10)
                                              ·:.'




CONFIDENTIAL                                                                       CONFIDENTIAL


                                    Executive Summary

Allegation:      Plagiarism.

OIG Inquiry:     OIG identified 86 sources from which approximately 813 unique lines were
                 copied into 18 NSF proposals and four final project reports.

OIG
Investigation:   OIG focused its investigation on three awarded and one declined proposals.
                 We concluded, based on a preponderance of the evidence, that the Subject
                 knowingly committed plagiarism, and that the plagiarism constituted a
                 significant departure from accepted practices of her professional community.

OIG
Assessment:
                 •   .The Act: The Subject plagiarized 294 unique lines, two figures, and 59
                      embedded references from 23 sources into the four NSF proposals.
                 •   Intent: The Subject acted knowingly.
                 •    Standard of Proof: A preponderance of evidence supports the conclusion
                     that the Subject committed plagiarism.
                 •    Significant Departure: The Subject's plagiarism represents a significant
                      departure from accepted practices.
                 •   Pattern: A pattern of plagiarism was identified in the proposals the
                      Subject submitted prior to the investigation.

OIG
Recommends:
                 •   M;ake a fmding of research misconduct against the Subject.
                 •   Send the Subject a letter of reprimand.
                 •   Require certifications from the Subject for a period of2 years.
                 •   Require certification of attending an ethics class within 1 year.




                                                 1
CONFIDENTIAL                                                                            CONFIDENTIAL


                                                 OIG's Inquiry

       OIG conducted an inquiry into an allegation that the Subject1 submitted NSF proposals
containing copied mat~rial. We reviewed 18 proposals (four awarded; 13 declined; and one
returned without review) and four final project reports the Subject submitted to NSF between
-and~ Seventeen of the proposals3 named the Subject as PI and were
submitted by small businesses. 4 Our initial analysis identified a total of813 unique lines oftext
copied from 86 sources 5 in the proposals and reports.

       We contacted the Subject about the allegation. 6 In her response, 7 she said "All the
innovations, ideas, research, processes and results are mine and of people I worked with for the
proposals submitted to NSF." 8 She said she "did not intentionally use any other person's words
without giving appropriate credit", 9 and argued the sources were either properly cited,
contributions from collaborators, 10 or common or technicallanguage. 11 The Subject concluded:

                  My research in emerging areas is one of the foremost in the field
                  published in reputable journals and cited over 300 times. My work
                  does not contain materials copied from other people, work or ideas.
                  A computer generated program might find identical 7 words in a
                  row or similar text, but a closer look will show that the text was
                  properly cited or contains basic technological text and expressions
                  widely used in the literature. 12

        We reviewed the Subject's response and determined it did not dispel the allegations.
Specifically, the Subject acknowledged instances of inadequate. citation within her proposals and
did not contest having included the material. We concluded there was sufficient evidence to
proceed with an investigation.                         ·




5
  Tab 2.
6
  Tab 3.
7
  Tab 4.
8
  Tab 4, pg I.
9
  Tab 4, pg I.
10
   Tab 4, pg 3. All quotations herein are sic.
11
   Tab 4, pg 1. ·
12
   Tab 4, pg 3.


                                                       2
CONFIDENTIAL                                                                       CONFIDENTIAL



                                        OIG Investigation

        Because the submitting organizations were small businesses, OIG conducted its own
investigation rather than refer the matter to the businesses. We informed the Subject of our
investigation and asked her to answer written questions. 13

        Given the breadth of proposals examined and the need to carefully evaluate documents
relative to the Subject's response, we focused the investigation on three awarded proposals
(Proposals 1-3) 14 and on one declined proposal (Proposal4) 15 that contained the most significant
plagiarism and that did not identify Co-Pis on their cover pages. From these four proposals, we
identified 294 unique lines, two figures, and 59 embedded references copied from 23 sources:

                                            p ronosa 11
                  Source A (article)       2.5 lines
                  Source B (article)       13 lines
                  Source C (article)       8Iiries
                  Source D (article)       2lines
                  Source E (article)       8.5 lines
                  Source F (article)       10 lines, 4 embedded references
                  Source G (article)       6 lines, 2 embedded references
                  Source H (article)       12lines
                  Source I (article)       20 lines
                  Total (unique)           82 lines, 6 embedded references

                                            p ronosa12
                  Source Y (article)      7 lines, 1 figure
                  Source Z (article)      2 lines, 1 figure
                  Source AA (article)     9 lines, 4 embedded references
                  Source BB (article)     2lines
                  Source CC (website)     41ines
                  Total (unique)          24 lines, 2 figures
                                          4 embedded references




                                                   3
 CONFIDENTIAL                                                                                CONFIDENTIAL


                                                      p ronosa13
                        Source L (article)            50 lines, 5 embedded references
                        Source M (website)            6lines
                        Source N (article)            65 lines, 34 embedded references
                        Source 0 (article)            2lines
                        Total (unique)                123 lines, 39 embedded references

                                                      p ronosa14
                       Source NN (program
                       description)                        13lines
                       Source 00 (article)                 18 lines, 9 embedded references
                       Source QQ (article)                 2lines
                       Source RR (article)                 29 lines, 1 embedded reference
                       Source SS (report)                  3 lines
                       Total (unique)                      65lines, 10 embedded references

 We found that copied material either was not cited at all or was cited inadequately. For example,
 Source Lis cited in Proposal3's "Works Cited" as source 10; however, the citation is not clearly
 linked to the totality of copied text, and the text is not demarcated as verbatim from its source.
 Additionally, in some cases, we found that individuals the Subject named in her inquiry response
 as proposal contributors were not named in the proposal or the project final report. For example,
 the Subject told us that that an author of Source N 1 collaborated with her on Proposal 3, which
 included 65 lines, 34 embedded references from Source N. Proposal 3 made only passing
 reference to the Source N co-author's laboratory, in no way indicating that his article was the
 source ofthe copied text. 17 An intention to collaborate did not relieve the Subject ofthe
 obligation to clearly distinguish her own text from others'.

          Because Proposals 1-3 were funded and contained copied text, we examined whether the
 copied text was material to NSF's funding decisions. We determined Proposals 1 and 2's copied
 text was contained primarily in the proposals' background sections, and was not material to the
 proposed research. Although Proposal 3 contained copied material in Task 2 of its "Work
 Plan," 18 the copied material did not constitute the substance of the proposed work. We concluded
 that the copied text in Proposals 1-3 was not material to NSF's funding decisions.

          In the Subject's written response, regarding the few "citing errors" that she
  acknowledged, she argued that they "were involuntarily committed. I did not have any intention
. of plagiarizing, or knowingly try to pass others' work as my own." 19 She added she had received
  no "formal tr~ng on properly citing references"20 and that:




 16···
 17
 18
 19
 20
    Tab 7, Proposal3, pg 14 ofthe project description.
    Tab 7, Proposal3, pg 5-9 of the project description.
    Tab 6, Response to Investigation Letterl.
    Tab 6, Response to Investigation Letterl.


                                                            4
                                                                    ·.·.,




 CONFIDENTIAL                                                                          CONFIDENTIAL


                   My understanding was and is, that plagiarism occurs when a
                   person copied verbatim another person's work, or uses their ideas
                   (which are not common knowledge) without properly giving credit
                   to the author. The plagiarized work includes verbal and written
                   word, which can derive from speeches, lectures, articles, blogs,
                   websites, recorded material, etc?1

 She concluded that her lack of knowledge and education regarding proper citation contributed to
 the plagiarism,22 but that "I understand now that in order for someone to know which text is my
 own and which is copied, that it has to be properly cited. 23

          To understand the standards of the Subject's research community, we first reviewed
  websites of three professional societies24 of which the Subject is a current or former member.
  We found they contained no guidance or policies regardingresearch standards of conduct or
  misconduct. Our review of the standards of the leading U.S. professional association in the
  Subject's field, 25 however, did identify explicit standards of conduct. The association, which
  publishes four of the journals that the Subject referred to as "high impact"26 and in which the
· Subject has published, has an Ethics Committee website27 that contains the association's code of
  conduct, fublication guidelines, and a specific statement on "Plagiarism: Intellectual Property
  Rights." 2 The guidelines state: "An author should identify the source of all information quoted
  or offered, except that which is common knowledge."29 .

         We reviewed the Subject's educational and professional history. 30 According to her CV,
 the Subject is a seasoned researcher and educator, with over 25 years of experience. Although
 the Subject received her undergraduate and graduate education outside the U.S} 1 she conducted
 a four year post-doc at a highly reputable U.S. institution and ~urrently serves as Associate
                                                            32
                                                33
 Director of a center in that same institu:tion. Although the five books she co-authored are not
 written in English, thirty of the 47 articles are.




 21
    Tab 6, Response to Investigation Letter2, Letter, pg 2.
 22
    Tab 6, Response to Investigation Letter!.
 23
    Tab 6, Response to Investigation Letter!.
 24
    Her CV states that her           · have included




                                                              5
CONFIDENTIAL                                                                            CONFIDENTIAL



       We detennined the Subject exhibited a pattern of plagiarism, in that eighteen proposals
on which the Subject was PI or Co-PI contained plagiarism. Our review of her most recent NSF
proposal,34 submitted during our investigation, identified no inadequately cited text.

                                           OIG's Assessment

           Under NSF's Research Misconduct regulation:

           Research misconduct means fabrication, falsification, or plagiarism in proposing
           or perfonning research funded by NSF, reviewing research proposals submitted to
           NSF, or in reporting research results funded by NSF.

           Plagiarism means the appropriation of another person's ideas, processes, results
           or words without giving appropriate credit. 35

           A finding of research misconduct by NSF requires that -
                   (1) there be a significant departure from accepted practices of the relevant
           research community; and
                   (2) the research misconduct be committed intentionally, or knowingly, or
           recklessly; and
                   (3) the allegation be proven by a preponderance of the evidence. 36

                                                 The Acts

        Our review found the Subject copied 294lines, two figures, and 59 references from 23
sources into funded Proposals 1-3 and declined Proposal4. OIG concludes the Subject's actions
constitute plagiarism under NSF's definition. In offering material composed by others as her
own, the Subject misrepresented her own efforts and presented reviewers with an incorrect
measure of her abilities.

        Based on the articulated ethical standards of the preeminent U.S. professional society in
Subject's field of research, we conclude that the Subject's acts ofplagiarism constituted a
significant departure from accepted practic~s.



       The act of copying and pasting text~specially including numerous embedded
references which must be copied separately from the text-is intrinsically knowing conduct. The
Subject did not contest she included material from sources, but rather argued that much of the
material was adequately cited. We found, however, that none of the highlighted text in Proposals
1-4 was properly cited. Although the Subject operates small businesses, she was a post-doc for
four years and has also operated in a management position within an academic context, in which

34


35
     45 C.F.R. § 689.l(a)(3).
36
     45 C.F.R. § 689.2(c).


                                                     6
CONFIDENTIAL                                                                         CONFIDENTIAL



she is required to know and comply with the requirements for academic integrity. We therefore
conclude the Subject acted knowingly.

                                           Standard o(Proo(

      OIG concludes that the Subject's actions and intent were proven based on a
preponderance of the evidence.

        OIG concludes that the Subject, by a preponderance of the evidence, knowingly
plagiarized, thereby committing an act of research misconduct.


                                  OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:
               (1) How serious the misconduct was;
               (2) The degree to which the misconduct was knowing, intentional, or
       reckless;
               (3) Whether it was an isolated event or part of a pattern;
               (4) Whether it had a significant impact on the research record, research
       subjects, other researchers, institutions or the public welfare; and
               (5) Other relevant circumstances. 37

                                              Seriousness

        The Subject's actions are a violation ofthe standards of scholarship and the tenets of
general research ethics. Copied text serves to misrepresent one's body of knowledge, presenting
reviewers with an inaccurate representation of a proposal's merit. While the quantity of
plagiarized material was significant, it was neither extremely extensive nor material to NSF's
funding decisions.

                                                Pattern

           We identified an extensive pattern of plagiarism in the proposals the Subject submitted to
NSF.

                                                 Impact

       The Subject's actions did not have a significant impact on the research community. The
copied material was not material to the decision to fund in those proposals that were awarded,
and the copied material in the unfunded proposals did not serve to get the proposals funded and
was never publicly available.



37
     45 C.F.R. § 689.3(b).


                                                    7
CONFIDENTIAL                                                                                          CONFIDENTIAL



                                          Other Relevant Circumstances

        We are troubled by the Subject's various arguments that she did no(commit plagiarism.
While the most recent proposal she submitted to NSF did not contain plagiarism, it is not
mitigating in light of the fact that the proposal was submitted while she was aware of our
investigation and scrutiny of her submissions to NSF.

                                                 Recommendation

Based on the evidence, OIG recommends NSF: ·

              •   send a letter of reprimand to the Subject informing him that NSF has made a
                  finding of research misconduct; 38

              •   require the Subject to certify to OIG's Assistant Inspector General for
                  Investigations that proposals or reports he submits to NSF do not contain
                  plagiarized material for 2 years; 39 and

              •   require the Subject to complete an ethics course, which includes discussion on
                  citation practices, within 1 year and provide certification of its completion to
                  010. 40                                                                         .




38
  A letter of reprimand is a Group I action (45 C.F.R. §689.3(a)(l)(i)).
39
  Certification by an individual is a final action that is comparable to the fmal actions listed in 45 C.F.R. §689.3(a).
4
 °Completing an ethics course is a final action that is comparable to the final actions listed in 45 C.F.R. §689.3(a).

                                                            8
